                                 CLOSEOUT FOR M-95060023




:   complainant alleged that an unknown ad hoc reviewer violated the ~~nfidentiality-ofpeer




    confidentiality of peer review by one of the proposal's co-PIS who, in turn, had learned about
    it from the third party.



                                                                                         --
    The third party told OIG that the subject asked him about the third party's inclusion as a
    participant but not a co-PI in the proposal. He explained that, before the subject's guestion, he
    was unaware that he had been included in the proposal. The third party said that he and the
    subject discussed nothing else about the proposal. Immediately after their conversation, the
    third party said he discussed the subject's call with one of the co-PIS on the proposal. He said
    the co-PI showed him a copy of the proposal including the section that contained a reference
    to the use of the third party's laboratory to perform a specific test. The third party explained
    that he would have preferred it if the PIS had informed him in advance about the proposed use
    of his laboratory, but he thought the issue was insignificant.


           OIG contacted the subject who explained that, prior to his review of the complainant's
    proposal, he had reviewed two similar NSF proposals in which the complainant and the third
    party were co-PIS. Consequently, when he received the complainant's proposal, he was
    curious about the use of the third party's laboratory without his inclusion as a co-PI. The
    subject said that, in a conversation about other matters, he inadvertently asked the third party
    about his role in the proposal He said they discussed nothing else about the proposal. He did
    not consult with the NSF program officer before he asked the third party about his role in the
    proposal because the question was "harmless" and "off-the-cuff.."




                                          Page 1 of 2
                             CLOSEOUT FOR M-95060023

        OIG confirmed that the subject had reviewed two earlier NSF proposals on which the
third party and the complainant were co-PIS. The complainant's proposal contained a single
statement that referred to the third party's laboratory as the location at which a particular test
would be performed.


        OIG determined that the subject violated the confidentiality of peer review when he
contacted the third party and discussed the complainant's proposal without first consulting the
program officer to learn if this would be appropriate. However, the subject's discussion with
the third party focused on a single issue related to the use of the third party's laboratory in the
proposal. OIG concluded that, in this case, given the limited scope of the discussion, the
subject's action did not rise to the level of misconduct in science according to NSF's
Misconduct in Science regulation (45 C.F.R. $689).

       This inquiry was closed and no hrther action will be taken.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 2 of 2
